<html>
<title> - A GLOBAL CRISIS: REFUGEES, MIGRANTS, AND ASYLUM SEEKERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           A GLOBAL CRISIS: REFUGEES, MIGRANTS, AND ASYLUM SEEKERS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                 Subcommittee on Africa, Global Health,
          Global Human Rights, and International Organizations

                               __________

                           FEBRUARY 26, 2019

                               __________

                            Serial No. 116-5

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-363PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbacbba48ba8beb8bfa3aea7bbe5a8a4a6e5">[email&#160;protected]</a>                                       
                       
                     
                     COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia	     STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California	             LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York	     BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota		     JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas    		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania	     GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                              

               Jason Steinbaum, Democratic Staff Director
               Brendan Shields, Republican Staff Director
                            

                      
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

                    KAREN BASS, California, Chairman

SUSAN WILD, Pennslvania              CHRISTOPHER H. SMITH, New Jersey, 
DEAN PHILLIPS, Minnesota                 Ranking Member
ILHAN OMAR, Minnesota		     JIM SENSENBRENNER, Jr., Wisconsin
CHRISSY HOULAHAN, Pennsylvania	     RON WRIGHT, California                                                                        
                                     TIM BURCHETT, Tennessee
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ruiz, Hon. Raul, a Representative in Congress from the State of 
  California.....................................................     9
Buwalda, Annigje, Executive Director, Jubilee Campaign, USA......    20
Mace, Ryan, Grassroots Advocacy and Refugee Specialist, Amnesty 
  International..................................................    34
Schwartz, Honorable Eric, President, Refugees International, 
  Former Assistant Secretary of State for Population, Refugees, 
  and Migration..................................................    45

                                APPENDIX

Hearing Notice...................................................    69
Hearing Minutes..................................................    70
Hearing Attendance...............................................    71

 
        A GLOBAL CRISIS: REFUGEES, MIGRANTS, AND ASYLUM SEEKERS

                           February 26, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
Room 2200, Rayburn House Office Building, Hon. Karen Bass 
(chairwoman of the subcommittee) presiding.
    Ms. Bass. Good afternoon, I welcome everyone to the first 
hearing of the 116th Congress for this subcommittee.
    I want to welcome the new members of our subcommittee.
    This hearing is now called to order. Without objection, 
members have 5 legislative days in which to submit their 
statements and materials for the record.
    Since I do not have a gavel, I will just knock on the 
table. So given that there are many new members on this 
subcommittee, I wanted to take time for the first few hearings 
to really do an overview of the jurisdiction. I mean we are 
blessed to have our ranking member here who has been on this 
committee and working in the subject area for more than 3 
decades, but for the new members that are here we really wanted 
to take time and review all of the different subject areas. So 
delving into U.S. policy toward Africa, having a hearing on 
global health, looking at international organizations. And we 
will do this through a series of hearings.
    I also wanted to invite the members to a meeting that we 
are going to have on March 11th, which will be with all of the 
Ambassadors from the African continent. In April we will do a 
congressional delegation to Africa, looking at the role of the 
U.S. military on the continent. This specific hearing focuses 
on the intersection of global health, human rights, and 
international organizations.
    The world is experiencing what many experts say is an 
unprecedented humanitarian and displacement crisis. I am sure 
many of us have seen images flash across our TV screen that 
include massive numbers of citizens displaced from Syria, 
Myanmar, the Democratic Republic of the Congo, Yemen and 
others. But we also have to acknowledge that this is also 
happening right here on our own doorstep.
    According to the U.N. High Commissioner for Refugees in 
2017, more than 68 million people were forcibly displaced 
worldwide. Those displaced included 25 million refugees, 3.1 
million asylum seekers and 40 million IDP's are internally 
displaced persons.
    People leave their countries for a variety of reasons, but 
most are forcibly displaced due to armed conflict, widespread 
or indiscriminate violence, human rights violations and/or 
persecution. Another category of displaced people includes the 
millions affected yearly by natural disasters, such as 
earthquakes, storms or drought.
    We can all imagine that the choice to leave one's home 
cannot be easy. After escaping some of the most challenging 
circumstances in their home countries, these migrants, 
refugees, and asylum seekers endure difficult journeys that 
often puts them at risk for exploitation.
    While there are many more cases, including people displaced 
from Afghanistan, Iraq, Sudan, and South Sudan, the situations 
I have referenced highlight that there are numerous root causes 
for why people are forced to leave. This is why it is critical 
for the United States to continue to support the State 
Department and USAID, given that their programs are often aimed 
at investing in women, girls, and youth. It is better to 
address the root causes for why people have to leave their 
countries.
    I would be remiss if I did not mention that the United 
States is also confronting our own challenges on how to engage 
with refugees, migrants, and asylum seekers. As we watch images 
of these vulnerable populations making their difficult 
journeys, we have to ask the same questions that we were asked 
if it were the Rohingya, arriving exhausted, hungry and sick, 
after walking for days through jungles or mountains or braving 
dangerous sea voyages. This is important because we should also 
hold ourselves accountable. It is also important because it 
gives us more credibility in the world as we attempt to tackle 
the important issue of displaced persons around the world.
    I look forward to hearing the testimony of our witnesses as 
we attempt to understand the magnitude of this crisis. I want 
to thank the witness, especially our colleague Representative 
Raul Ruiz.
    I yield to my friend and colleague, Ranking Member Smith.
    Mr. Smith. Thank you very much.
    Madam chair, congratulations to you on taking over the helm 
of this very, very important committee. It has been my 
privilege as you said to be on it as either chairman or ranking 
member since the 1990's. So it is great to be with you and we 
have worked very well together over the last several years. I 
deeply appreciate that.
    We have been bipartisan on so many important issues, we 
have traveled together to places, we have been denied entry, 
for example DR Congo, but we did get into certainly Ethiopia. 
We have been to as well to South Sudan and had some very 
contentious meetings with Salva Kiir, very much deserved for 
his dropping the ball, particularly when it comes to refugees, 
IDPs, and basic humanitarianism.
    Today's hearing is an interesting and a complex topic, a 
very important topic. I think it is right that we focus on 
refugees, and IDPs. I would like to side step some of the 
politics and focus instead on one category of people. But 
before I do I would note, and I think it is worth noting, that 
according to CRS the U.S. continues to be the largest donors of 
humanitarian assistance worldwide, providing nearly one-third 
of the total global contributions, more than 7 billion in 2016, 
9.3 billion in 2017 and 9.4 billion in 2018.
    The U.N. Office for Coordination of Humanitarian Affairs 
anticipates that in 2019 more than 132 million people worldwide 
were requiring humanitarian assistance and protection as a 
result of conflict and disaster. Moreover, the U.N. High 
Commissioner of Refugees says that in 2018 more than 68.5 
million people were forcibly displaced worldwide due to war and 
conflict, widespread or indiscriminate violence and human 
rights violations. A huge number of people of great, great 
burden on each of these individuals and their families. The 
government that often are inadequate because of resources to 
care for them, putting an even more burden on the developed 
countries to step up and to assist.
    I would point out that, you know, we--the last Congress I 
introduced H.R. 390 to assist those men and women who were 
escaping from ISIS. I chaired no less than 10 congressional 
hearings on their plight. There were 70,000 strong who made 
their way into Erbil. Every one of them a survivor of ISIS' 
genocide. And I am happy to say that the bill was signed into 
law in December, and it is designed to assist those individuals 
who went largely unassisted during several years of genocide by 
ISIS.
    I do believe that there are a large number of people who 
are people of faith all over the world, including the people in 
China, who are kind of internally displaced, given that they 
are in concentration camps. Put there deliberately, the Muslim 
Uighurs because of Xi Jinping's horrific crackdown on religion, 
he called it Sinification. It is an effort to say that 
everyone, whether you be Falun Gong, Christian Tibetan 
Buddhist, or a Muslim Uighur, or anyone else need to comport 
with and conform with the communist ideology or else. You go to 
a gulag, you become internally displaced and you are just 
harassed and in many cases tortured.
    In the last administration we did have trouble with 
allowing Christians from Syria to come into the United States 
and I held hearings on that as well. It was less than one half 
of 1 percent who came as refugees. I think that was 
unfortunate. It could have been rectified. I never got to the 
bottom as to why that was the case.
    There was reliance on the UNHCR, which I greatly admire and 
respect as an organization. But frankly, there are a lot of 
Christians who simply will not go there. If they did the women 
would be harassed, sexually abused, raped in many cases and the 
men would be beaten. So they chose another route, many went to 
Lebanon, many went to Erbil in the case of the Christians who 
escaped, and again I went and visited, talked to those people, 
and they wondered where was the United States? Why were you not 
helping us? That is being rectified.
    Anna Eshoo who is the cosponsor of my bill, we had a number 
of bipartisan cosponsors, including the gentlelady who is now 
the chair, really is making the difference to reach out to 
those people who were persecuted and so maltreated.
    We also need to continue to help the Rohingya in Burma who 
are persecuted, the Ahmadiyya in Pakistan who are considered 
apostate by the Sunni majority and are in greater need of 
asylum as well. Again to underscore, the Muslim Uighurs this 
number approximates what we saw in the second world war. With 
so many people being put into concentration camps.
    Last year, I had 2 hearings on this. One woman Mihrigul, 
who is a Muslim, Tursen testified and said she was tortured in 
the chair, a hideous device used by the Chinese Government and 
was hoping for death. She goes, I wanted to die, it was just so 
painful. And why was she--she asked her jailer, why am I being 
so maltreated? He said, because you are an Uighur and because 
you are Muslim. Those two things.
    I think the whole world has to speak up even more 
aggressively to this carnage being visited upon people of faith 
and others who do not conform to the communist dictatorship of 
Beijing. And again we need to do more, always more for 
refugees, IDPs, because they are--and I do see my old friend 
who used to be at the National Security Council for the Clinton 
Administration, who when we had a problem with people who were 
being forced back to Vietnam, pursuant to the comprehensive 
plan of action and I thought it was a very major mistake on 
some but in the Clinton Administration to do so, we had a 
friend and ally in Eric Schwartz, in fighting.
    I offered an amendment on the floor of the House to deny 
any funding for forced repatriation. It passed unexpectedly, 
people thought it would not. Now I am working with Eric and 
other like mind, but he took the lead within the 
administration. We were able to get rereviews of these 
refugees. 20,000 people who were originally told you do not 
qualify came to the United States. So thank you Eric.
    Ms. Bass. Thank you very much, Mr. Ranking Member.
    Let me introduce our first witness, U.S. Representative 
Raul Ruiz, grew up in the community of Coachella, California. 
Where both of his parents were farm workers. Dr. Ruiz graduated 
from UCLA. He went on to Harvard where he earned his medical 
degree as well as a masters of public policy from the Kennedy 
School of government and a masters of public health from the 
school of public health, becoming the first Latino to earn 
three graduate degrees from Harvard University. He completed 
his residency in emergency medicine. And during his training he 
served as a consultant to the ministries of health in both 
Serbia and El Salvador.
    In 2010, Dr. Ruiz started the Coachella Valley Healthcare 
Initiative which brought together stakeholders from around the 
region to address local healthcare crisis. In 2010 Dr. Ruiz 
flew to Haiti immediately following the 2010 earthquake and 
served as the medical director for the Haitian relief 
organization.
    The U.S. Army's 82d airborne awarded him the Commander's 
Award for public service. We appreciate you coming in to 
testify and please begin.

 STATEMENT OF THE HON. RAUL RUIZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Dr. Ruiz. Good morning Chair Bass, and Ranking Member 
Smith. Thank you for the opportunity to testify before the 
subcommittee to discuss a critical and urgent matter, the 
treatment of migrants, refugees and asylum seekers. It is a 
topic I am moved to discuss, because frankly our Federal 
Government needs a lesson on the humanitarian standards that 
should govern our treatment of the individuals in our custody.
    Some background on me, I am an emergency medicine 
physician, and a graduate of Harvard Medical School. I am also 
a graduate of the Harvard School of public health where I 
specialized in humanitarian aid and disaster response and 
completed a fellowship in the international emergency medicine 
with the Harvard humanitarian initiative.
    In 2010, I traveled to Haiti immediately following the 
devastating earthquake where I worked alongside the 82d 
airborne division as the medical director of the largest camp 
of approximately 70,000 internally displaced Haitians in 
Petion-Ville Port-au-Prince. Caring for individuals in life or 
death situations is not new to me in the emergency department 
or as medical command or out in the field after a humanitarian 
disaster.
    I am very familiar with the international humanitarian 
norms that guide our treatment of individuals affected by 
humanitarian crisis. As this committee knows well after the 
atrocities of the Holocaust and World War II, the international 
community came together many times to establish the 
conventions, covenants, and declarations to establish basic 
humanitarian standards. Some of these include the Universal 
Declaration of Human Rights, the International Covenant on 
Civil and Political Rights and the convention against torture 
and other cruel, inhumane or degrading treatment or punishment. 
The implementation of these standards make up the basis of 
humane treatment of all human beings.
    There are also specific guidelines for the humane treatment 
of migrants, refugees, and asylum seekers. This Sphere 
Handbook, internationally recognized for its use in the 
evaluation, planning, and delivering of humanitarian operations 
set forth guidelines for health, shelter, nutrition, hygiene, 
water supply, and sanitation. International organizations such 
as the U.N. High Commissioner for Refugees and the 
International Committee of the Red Cross have also established 
standard of care for asylum seekers and detention.
    The United States is currently not meeting these minimal 
basic standards. Following the death of Jakelin Caal, the 7 
year old Guatemalan girl who died in Customs and Border Patrol 
custody last year, I visited the CBP facilities where she was 
held before her death. The conditions I witnessed were 
heartbreaking.
    Women, infants, toddlers and the elderly packed and piled 
on top of each other in a cold windowless concrete room, so 
many bodies you could not see the floor. Open toilets in 
crowded cells without any privacy. Visibly sick children 
coughing on one another. The facility lacked lifesaving 
equipment and basic medications for infants and toddlers, no 
diapers, no baby food, no formula, no feminine products 
available. In short, they were understaffed, underequipped, and 
unprepared to provide meaningful health screenings to 
individuals in their custody, let alone respond to medical 
emergencies.
    We are the wealthiest Nation on Earth, but the conditions I 
saw were worse than those I saw in Haiti after their most 
challenging and devastating disaster. It is clear to me that 
these deficiencies put children and our agents at risk. As a 
public health expert I know that if Border personnel had access 
to the necessary resources, training and medical backup, they 
could triage and prevent more tragedies. This is not just about 
treating individuals in our custody in a humane manner, it is 
also a matter of law, both the U.S. law and international law 
give individuals the right to seek asylum.
    In the event that the Federal Government restricts the free 
movement of an individual, including their detainment by U.S. 
Customs and Border Patrol, then it is the Federal Government's 
responsibility to provide for these basic rights and to ensure 
the protection of their humanity throughout the asylum process. 
That is why I am drafting legislation that would implement a 
basic set of uniformed humanitarian standards that guide the 
way CBP cares for detained asylum seeking children, families, 
and high-risk individuals that reflect our humanitarian values.
    First, to prevent deaths in CBP custody we need to 
meaningfully address the health needs of individuals entering 
our borders, especially through vulnerable populations like 
infants, children, pregnant women, elderly, and the disabled. 
That requires an initial medical screening including vital 
signs and a basic physical exam to identify risks, signs and 
symptoms of life threatening vulnerabilities.
    Second, we need a better response to emergencies by having 
emergency medical equipment available for patients of all ages 
and trained medical personnel to administer emergency medical 
care.
    Third, we need to provide individuals in temporary custody 
with safe, hygenic and humane temporary shelters to address 
public health and uphold human dignity. These are 
straightforward reforms based on the international standards 
outlined previously in my experience working in the emergency 
department and alongside disaster medical assistance teams and 
the U.S. Army in Haiti. They will bring humanity back to our 
treatment of women and children seeking asylum and prevent 
needless loss of live.
    Migrants, refugees and asylum seekers around the world have 
the courage to leave the devastating and often dangerous 
conditions in their home countries and travel to find safety in 
a better future for themselves and their families. That was the 
case with the men and women who founded our Nation, seeking 
freedom, refuge, and a better life.
    I look forward to work, with you and CBP to bring the 
conditions that children and families are held under here in 
the United States in line with the basic humanitarian standards 
observed in even the most dire and severe circumstances across 
the globe.
    [The prepared statement of Dr. Ruiz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you very much Dr. Ruiz. We expect votes to 
be called in the next 10 minutes so I am going to keep us--we 
do not have a clock here, but I have my stopwatch, so I will 
keep us to asking questions for 5 minutes. And I will be brief 
to give more opportunity to my colleagues.
    Dr. Ruiz, given that I do not see the situation ending any 
time soon, on our border, and looking at resources that might 
be proposed by this committee in legislation and you just 
mentioned legislation you were talking about as well, what 
resources, what should we ask USAID or other governmental 
entities to provide on the border?
    I am also thinking about the people. I hope at another 
hearing we could look at addressing the root causes of why so 
many people were coming from Central America. I mean we are 
providing aid to Central America. But I do not know that that 
aid that we are providing is really getting at the root causes 
so that people do not make the journey in the first place.
    So I think that is for another hearing. But if you are 
thinking about the people after they leave on that journey, 
what type of aid should we be giving to those countries so that 
once they leave they are dealt with safely? And also when they 
are at the border, what would you recommend?
    Dr. Ruiz. In terms of aids to the other country or the 
needs of our own country to address----
    Ms. Bass. Right. Both. I am actually referring to both.
    Dr. Ruiz. So let us go ahead and first start with the aid 
to other countries. First of all, we know that many, and the 
vast majority, of the asylum seekers were fleeing violence and 
threats, oftentimes due to drug cartel or gang members that 
exist within in what I would refer to as a failed State in a 
nontraditional way in the sense that their own governments 
cannot provide law, order and safety for their communities. 
Oftentimes they are the villages in the remote areas, 
indigenous communities who are socially isolated without the 
social capital to gather and protect themselves that are preyed 
upon.
    What we can do to provide assistance to create that order 
and safety and security for their populations would be very 
helpful. There are many who come as economic migrants and 
building the opportunities for microloans for example for women 
and children. Studies have shown that that has helped in places 
like India and Africa to foster a community development at a 
grassroots community level, which will give them hope 
opportunity and the means to provide for themselves and their 
family.
    In terms of the United States, my legislation and my focus 
is on the what, creating these basic humanitarian standards and 
allowing CBP and Department of Homeland Security to determine 
the how, because they will need flexibility to meet these 
specific needs. So what is in the what. For example, I think 
that they need to be able to have partnerships or have more 
individuals who know how to conduct a questionnaire, and vital 
signs, and a rudimentary physical examination, especially 
starting with vulnerable populations like infants, toddler, 
pregnant women, elderly and the disabled. And then once 
identified an abnormality to be able to consult with an 
emergency care professional who can then triage and determine a 
short, medical plan of observation or treatment or even 
immediate evacuation.
    If that was done in Antelope Wells, where Jakelin Caal was 
detained, then she would still be alive today, because no child 
looks healthy 8 hours before they die of septic shock. Right? 
They do not look healthy. If you had just done a rudimentary 
vital signs on the child, you would have found most likely, 
temperature, fast heart rate, and that would have alerted to 
you that there was something wrong with the child.
    Ms. Bass. They did not have the resources. They were not 
medical people.
    Dr. Ruiz. They did not have the resources and they did not 
have the care. So resources making sure that there is medical 
equipment for infants and toddlers, which there was none. You 
need resources like basic formula, baby food. Oftentimes 
families and individuals were given a box with a burrito, 
infants, neonates, toddlers that is not what they eat so they 
do not eat that. Being able to provide an sufficient amount of 
clean water, as well as nutrition caloric intake of an adult 
and age specific weight based for children is important.
    Other things like soap, and toothbrush, and toothpaste. And 
a facility where they can wash their hands or bath daily will 
go a long way with public health. When you pile individuals in 
a concrete room that is cold and you keep the lights on and 
people are awake all night, all day their immune system 
decreases. When you add the stressors of what they have gone 
through, including being exposed to people coughing and 
sneezing on them, you are going to infect everybody and--with a 
common cold or what other virus that may exist that they 
acquired at that facility.
    Being able to have enough private clean toilets, latrines 
for a certain amount of people in the international 
humanitarian norms. It is usually one latrine for 15, 20 
individuals. We work with international organizations to 
provide that amount of latrines in Port-au-Prince in Haiti.
    So those are some of the equipment for example, 
temperature, adequate clothing, and blankets, and bedding. What 
I saw at the Border Patrol station were very thin aluminum 
sheets and they pretty much tried to sleep on the floor, 
oftentimes they would make accommodations so that their child 
could sleep on their arm, or on their chest so they wouldn't 
have to sleep on the floor.
    These were the--diapers for babies was also very important, 
because a child's feces is more infectious than an adult's 
feces. If you do not provide diapers or a disposal area where 
you can throw them away and wash your hands afterwards, then 
you are risking exposure to everybody and that is just basic, 
basic public health.
    Ms. Bass. Thank you. Mr. Smith.
    Mr. Smith. Thank you very much doctor for your testimony.
    Let me just ask you, you said the U.S. border facility in 
Lordsburg was understaffed, underequipped and unprepared to 
provide meaningful health screenings to people in their 
custody, let alone emergency medical services. Has that 
changed?
    Dr. Ruiz. The CBP has requested some change after our 
encounter. They requested more fundings through the 
appropriations to be able to contract with healthcare 
professionals.
    When I went to the border, the agents were still devastated 
from the death of Jakelin Caal. They are humans, they are 
fathers as well, and mothers so they were in sorrow. They often 
expressed anxiety and fear of now dealing with families and 
children where they have no experience and no training to do 
so. They are welcoming these resources and these norms.
    Mr. Smith. When were you in Lordsburg?
    Dr. Ruiz. I think it was in December I believe. It was 
Antelope Wells in December. I went as a delegation with the 
congressional Hispanic Caucus.
    Mr. Smith. So like in January, do you know if any of it has 
been fixed?
    Dr. Ruiz. There are certain areas that they are focusing 
more bringing in these resources, but I cannot tell you to the 
full extent whether or not the systemic problem has been fixed. 
They have not started training----
    Mr. Smith. But you and your staff recontact like a month 
later----
    Dr. Ruiz. Sure.
    Mr. Smith [continuing]. Did they tell you, we got this 
fixed? We are doing health training we are doing----
    Dr. Ruiz. No. We have been following up with the 
commissioner and task forces within CBP. I have been advising 
the task force for CBP on these humanitarian and public health 
criteria and standards. They are still developing their 
recommendations for the Secretary of DHS. So this is a work in 
progress. It has not been fixed.
    Mr. Smith. But given, you know, the very dire picture that 
you paint, it seems to me by the next week they should have 
been moving heaven and Earth to get this fixed. That is not the 
case?
    Dr. Ruiz. Well I agree with your assessment that they 
should have been moving heaven and Earth to meet those 
criterions. They started looking into how to do it, but I do 
not believe these standards have been met.
    Mr. Smith. OK. Is Lordsburg the exception or is it the rule 
for these facilities?
    Dr. Ruiz. Well, I think that the facilities that we visited 
were one of the most remote and rural areas. So it was probably 
one of the more worse case scenarios. However, the problem that 
we see is that the conditions or the current treatment is very 
vague and inconsistent throughout the different Border Patrol.
    Part of that is a lack of fundamental understanding of how 
to respond to the humanitarian needs of asylum seeker which our 
laws permit and which we have been accustomed to within the 
international humanitarian community. So what we need is a 
systematic way to bring in these humanitarian norms and 
standards and have training for our agents and those within the 
agency so we can meet those requirements.
    Mr. Smith. Doctor, is this a new problem or does this 
predate this new administration?
    Dr. Ruiz. I believe we have had----
    Mr. Smith. If I could, I have had hearings in the past and 
I asked questions previously, many questions about whether or 
not for example neglected tropical diseases were being screened 
for since there are many who could be carrying worms or other 
parasites and I got a big, we do not know. And we followed up, 
and we keep asking. My question would be, you know, is this 
something that happened within the last 2 years or does this 
predate this administration?
    Dr. Ruiz. Well, the movement of asylum seeking migrants has 
been going on for several years and predates this 
administration.
    Mr. Smith. Right. But in terms of the crisis and the lack 
of providing essential medical healthcare to those in need, is 
this brand new?
    Dr. Ruiz. This is an issue that has not been addressed, 
period. So----
    Mr. Smith. Even before this administration?
    Dr. Ruiz. Even before, yes.
    Mr. Smith. It is important, because we want to be fair to 
all players.
    Dr. Ruiz. See, I think it is important to understand.
    Mr. Smith. We want to get it right.
    Dr. Ruiz. This is something we have been talking to CBP 
about. And they recognized that they were not designed to 
address the humanitarian needs of families and children. And 
that is why this is a great opportunity for us as legislators 
and experts in the field to come together in a bipartisan way 
to help the CBP reform so that they can address the 
humanitarian needs of asylum seekers.
    Mr. Smith. But again, I just wanted to make clear for the 
record that it does predate the Trump administration. Yes?
    Dr. Ruiz. Yes, the lack of humanitarian norms within a 
system has never been in our CBP.
    Ms. Bass. Thank you.
    Mr. Smith. If I could ask one more followup question----
    Ms. Bass. Oh, sure.
    Mr. Smith. Unaccompanied minors was absolutely, you know, a 
great focus as it should be, I went to one of the shelters and 
there were staff from one of my centers who was there as well, 
that is in New Jersey. And frankly I was shocked on the upside 
just how well they were being treated.
    Dr. Ruiz. Where?
    Mr. Smith. They do not us to tell you. I will tell you off 
the record, because they do not want people knowing where it 
is, but it is in New Jersey. And there must have been 40 young 
people there and they were very well treated. Now there could 
be others where they are very poorly treated. Cory Booker's 
staff was there with ne and Leonard Lance was there, and I was 
there. We stayed for hours asking questions, talking to young 
people who were there.
    So I always wanted to get it clear, one, if this is all 
brand new, because I think it is long-standing, because we have 
had hearings in this Congress that predated Trump. And there 
has been a call for significant increases in humanitarian aid 
by the administration.
    Dr. Ruiz. Yes.
    Mr. Smith. I think that is a good thing and I think we need 
to provide that. So you would agree with that.
    Dr. Ruiz. And also I just want to make it clear that 
unaccompanied minors are detained in several situations. They 
are not--they are with ICE and that is one set of facilities, 
and then they are also in the care of the Office of Refugee 
Resettlement under the Department of Homeland Security. And 
they oftentimes contract with nonprofits and community agencies 
which provide homes and programs and education.
    So what we are not--we are not seeing that model which I 
also visited a location in Los Angeles throughout the whole 
system and there are unaccompanied minors that do not get 
treated or have the services like those that are under the care 
of the Office of Refugee Resettlement.
    Mr. Smith. Thank you.
    Ms. Bass. I am going to move on. Mr. Phillips.
    Mr. Phillips. Thank you, Chairwoman Bass. And greetings to 
my esteemed colleague. I celebrate your extraordinary position 
for this work. I am grateful to you.
    My first question is relative to funding and the White 
House has acknowledged that we have a humanitarian crisis at 
the border, asked for funding. We approved I think $414 million 
if I recall correctly. Do you believe that is an adequate 
amount to fulfill the response to the humanitarian 
responsibilities?
    Dr. Ruiz. No, I do not think that that is sufficient to 
meet the what that we need to address. But that is a very good 
first step. Those conversations occurred within the appropriate 
appropriations subcommittees. And we have been working with the 
appropriations subcommittees of Department of Homeland Security 
to identify these humanitarian norms.
    So right now there is a working relationship to get the 
requests inline with what these humanitarian norms are and that 
was the 2019 appropriations bill that we just passed. In 2020 
there will be another step to bring them in line to the 
humanitarian standards that should exist in CBP custody.
    Mr. Phillips. OK. I know we have to run, one more quick 
question if I might. Are you familiar with the country around 
the world that does this better than we do, and if so that we 
should look to as a source of best practices?
    Dr. Ruiz. You know I think that the source of best 
practices would be within the international humanitarian 
community. If you look at organizations that manage large 
internally displaced camps and refugee camps throughout the 
globe, ICRC and some practices from the U.N. commissioner for 
refugees and Doctors Without Borders who do this day in and day 
out, oftentimes at risks of their own life in the most dire 
disasters in the most impoverished countries. And they are able 
to meet the nutritional water needs to provide a camp that is 
reflective of human dignity. And so I think that working with 
them and realizing what their standards are would be a very 
good idea.
    Mr. Phillips. And employing that in their home country.
    Dr. Ruiz. Yes.
    Mr. Phillips. I appreciate it.
    Dr. Ruiz. Yes.
    Ms. Bass. Thank you very much. I really appreciate you 
coming as our expert witness. I appreciation your input, I look 
forward to joining you on your legislation.
    Dr. Ruiz. Thank you.
    Ms. Bass. So votes have been called. I am going to recess 
subject to call of the chair and I would encourage members to 
return. I believe we have two votes so we should be back in 
half hour, 45 minutes. Thank you.
    [Recess.]
    Ms. Bass. Could I call the panel forward? Eric Schwartz, 
Ryan Mace, and Annigje Buwalda.
    Thank you very much, thank you for your patience. Sorry we 
were pulled away for votes, but we are going to go ahead and 
get started.
    Eric Schwartz has been the president of Refugees 
International since June 2017. He has a 3 decade career focused 
on humanitarian and human rights issues. Between 2009 and 2011 
he served as U.S. Assistant Secretary of State for Population 
Refugees and Migration. As assistant secretary he was credited 
with strengthening the State Department's humanitarian advocacy 
around the world initiating and implementing critical 
enhancements to the U.S. refugee settlement program and raising 
the profile of global migration issues in U.S. foreign policy.
    Ryan Mace is the grassroots advocacy and refugee specialist 
for Amnesty International. He works to mobilize constituent 
pressure to advance AI USA major advocacy initiatives, in 
addition to lobbying Congress to protect and advance the rights 
of refugees and asylum seekers.
    Our third witness and I am sorry if I mispronounce your 
name. Miss Buwalda. From 1991 through the present time Ann 
Buwalda has served as executive director of Jubilee Campaign 
USA, focusing on international religious freedom, advocating 
for the release of prisoners of conscious and resettlement of 
refugees combatting trafficking for the protection of children 
and providing support to victims, in practice since 1992, Ms. 
Buwalda founded the law firm Just Law International in 1996, a 
firm handling all aspects of immigration law, including asylum 
and refugee cases.
    Thank you very much and you can begin your testimony. And 
we have your full statement so if you could summarize in 5 
minutes, that would be greatly appreciated.
    And I will keep a clock here.

   STATEMENT OF ANNIGJE BUWALDA, EXECUTIVE DIRECTOR, JUBILEE 
                         CAMPAIGN, USA

    Ms. Buwalda. Thank you. I would like to thank Chairwoman 
Bass----
    Ms. Bass. If you could turn your microphone on.
    Ms. Buwalda. I would like to thank Chairwoman Bass, Ranking 
Member Smith and members of the subcommittee for providing the 
opportunity to address the panel on the crisis of religious and 
ethnic minority refugees and asylum seekers in Thailand and 
elsewhere.
    The U.S. has traditionally been a beacon of hope for the 
oppressed and persecuted suffering around the world. And even 
in one of his statement Ronald Reagan said, quote ``Can we 
doubt that only a divine providence place this land, this 
island of freedom here for as refuge for all the people who 
yearn and breathe to be free.''
    It is a sincere hope that today's hearing will contribute 
to renewing the calling that the divine Providence has placed 
on this land. Jubilee campaign seeks to draw the subcommittee's 
attention to the need to protect and aid religious minority 
refugees. Under both international refugee law and domestic 
asylum law, one of the five grounds of protection is a well-
founded fear of persecution on account of one's religion. At 
times religious refugees have been placed behind other types of 
refugees, indeed that was one of the reasons that the 
International Religious Freedom Act of 1998 was so needed and 
it has been a remarkably effective tool since then and we are 
very pleased with many of the provisions within it.
    Those provisions I think need to be applied as it relates 
to refugees and refugee processing. My testimony today seeks to 
expose the circumstances in Thailand pertaining to a vulnerable 
refugee population, those seeking asylum from Pakistan. 
Verifiable statistics are difficult to obtain but we currently 
estimate that there are 3,000 to 4,000 Pakistani Christians in 
Thailand who fled religious persecution and whose cases are 
pending, some of them are approved and awaiting resettlement, 
but some cases are closed and affording them with no place to 
go.
    I would like to feature in today's testimony the case of 
Michael D'Souza, who on account of his denial by the UNHCR in 
Bangkok, Thailand of his case, he was forced to stay in their 
immigration detention facility in deplorable conditions, so 
much so after 1 year of suffering through that and no hope, he 
returned to Pakistan. Michael D'Souza was brutalized by the 
very people he feared would persecute him. His case should not 
have been denied and he remains stranded in Karachi, Pakistan.
    I use his case to demonstrate the fact that cases that are 
putting forward their claim as believers in a faith should be 
provided with opportunities to have their cases heard more--
with more reasonableness. We have found with many of the cases 
within the UNHCR in Bangkok, there are denials because there is 
an unreasonable standard and burden of proof placed upon them.
    We have many cases, as do colleagues of ours who assist 
with this refugee processing where it clearly appears to us 
that the UNHCR in Bangkok has placed a higher burden of proof 
on Pakistani Christian asylum seekers. This is something which 
we have attempted to place attention on. We have approached 
UNHCR, they are sympathetic, but the conditions in terms of the 
interviews have not changed and we wish to see that change take 
place.
    We also wish to point out that the conditions in the 
immigration detention centers within Bangkok and Thailand are 
absolutely deplorable. We want to mention the Montagnard asylum 
seekers from Vietnam who are stranded also in Bangkok. There is 
upwards of 500 of them. They are in the horrible situation at 
the IDC detention center where they are actually mothers are 
separated from their children and not allowed to even give them 
breastfeeding. So the conditions there are horrible. This is a 
very vulnerable religious minority community of Montagnards 
that need help there.
    There are many issues and reasons for why this is taking 
place that we have submitted within our written submission for 
my testimony today. And it is my hope that we can enable the 
UNHCR in Bangkok to do a better job of paying attention to 
religious minority asylum seeker cases.
    And finally, I wish to mention that we desperately need 
additional numbers for refugee resettlement to the United 
States. We do not believe that there is sufficient attention 
placed on this vulnerable population of refugees. And we wish 
to see that the United States admissions program would accept 
more of them. Thank you.
    [The prepared statement of Ms. Buwalda follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you very much. Mr. Mace. Hold on 1 second.
    Go ahead.

    STATEMENT OF RYAN MACE, GRASSROOTS ADVOCACY AND REFUGEE 
               SPECIALIST, AMNESTY INTERNATIONAL

    Mr. Mace. Thank you for having us here. Chairwoman Bass, 
Ranking Member Smith, and members of the subcommittee, thank 
you for inviting us to this hearing. You have my submitted 
testimony so I will be summarizing it today.
    My name is Ryan Mace and I am a refugee specialist At 
Amnesty International, USA global human rights movement. Last 
November I joined an AMNESTY delegation traveling to Jordan and 
Lebanon where we had the opportunity to hear from dozens of 
refugees. As global displacement has reached historic highs, 
affecting every region of the world, we must remember, this is 
a global crisis, but people are at its core. Refugees are human 
beings with human rights, rights that are at risk.
    Unfortunately countries around the world have responded 
with restrictive policies and fail to offer permanent 
protection on a scale that even begins to match the need. This 
is born out with the drastic reduction to refugee resettlement 
globally and an increase and detention used to deter and punish 
people who seek asylum. We are now helping lead this race to 
the bottom. Whether it is the Muslim refugee or asylum bans, 
increased detention of asylum seekers or targeting NGO human 
rights defenders, these policies can rightly be viewed as a 
violation of human rights. It is no exaggeration to say that 
the ability of people to seek safety and enjoy lasting 
protection is not only at risk, it is in crisis.
    I would like to tell you about a Syrian refugee family that 
has been living in Lebanon since 2013. Mr. Amari, father of 
four children aged 4 to 11 shared his two priorities with me. 
His first is the education of their children. Sadly more than 
half of refugee children in Lebanon attend no school at all.
    His second is to ensure they do not have to rely on others 
generosity to get by. In late 2016 they were notified they 
would be resettled to Richmond, Virginia. They packed up their 
bag and were ready to go. With the announcement in January 2017 
of the Muslim ban their dreams were shattered, they would not 
be going to Richmond. We come in peace, he said to us. We are 
looking for security and safety. We are asking for your help. 
The U.S. refugee program has long been a partnership between 
the Federal Government, local communities and private 
investments built up over decades.
    Today it is needlessly at risk. At its peak the program 
admitted over 200,000 this year we will be lucky if we get to 
20,000. The dramatic decrease in resettlement has put untenable 
pressure on refugee hosting countries around the world, 
countries including Turkey, Uganda, Jordan, and Lebanon all 
whose significant populations of refugees straining their 
social service programs.
    In recent years many countries have designed policies to 
keep people from ever even accessing their borders, putting up 
barrier after barrier to keep them out. States are violating 
their right to seek asylum. Forcing them to wait for weeks or 
longer in unsafe conditions or make the terrible decision to 
take dangerous routes to safety.
    Since 2016, European governments have practically shut down 
Mediterranean sea routes that refugees have used in the past 
with devastating results.
    In the U.S., Amnesty International has documented the 
dangerous trend of pushing back asylum seekers at the U.S. 
southern border in a recent report titled You Don't Have Any 
Rights Here. The report titled quotes a CBP official speaking 
to a Brazilian mother in Texas last year as they separated her 
from her child. That is the message that our frontline 
officials are communicating to those in search of safety.
    Unfortunately, many migrants and asylum seekers around the 
world are detained, often in appalling conditions and for 
indefinite periods. In Libya, migrants and refugees in 
detention centers are routinely exposed to torture, extortion 
and rape. In the U.S., over 40,000 people are held in detention 
any given day. Everyone should have the right to freedom from 
arbitrary detention and detention should always be the last 
resort.
    The assault on refugees and asylum seekers has now reached 
such heights that even advocates are targeted. An increasing 
number of countries are enacting policies to limit refugee 
rights organizations from doing their critical work. Here in 
the U.S., asylum advocates have reportedly been targeted by 
authorities, including facing criminal prosecution for 
providing water to exhausted migrants in the desert.
    Here we are, 2 years later and the Amari family is still in 
limbo, without a permanent home, despite one waiting for them 
in the U.S. As an advocate, I feel powerless, but the members 
of this committee have the power to change this family's life 
and others like them.
    These are our recommendations, first the U.S. should 
restore its commitment to refugee resettlement. Second, this 
cannot be the last time this subject is before this committee 
or this Congress. I am glad to hear that that will be the case. 
Third, this Congress must support legislation that overturns 
destructive policies that target these populations. And 
finally, our government has long been a leader in helping 
displaced populations around the world and we must continue to 
play that role.
    In closing, the world is rightly wondering if the U.S. is 
still an active partner in offering protection for those who 
need it most. We need to listen to refugees and asylum seekers 
and from those directly working with them.
    I thank the committee and look forward to your questions.
    [The prepared statement of Mr. Mace follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you.
    Mr. Schwartz.

 STATEMENT OF THE HONORABLE ERIC SCHWARTZ, PRESIDENT, REFUGEES 
    INTERNATIONAL, FORMER ASSISTANT SECRETARY OF STATE FOR 
              POPULATION, REFUGEES, AND MIGRATION

    Mr. Schwartz. Thank you for the opportunity to testify on 
these critical issues. Members have referenced the numbers at 
the end of 2017. There were nearly 70 million people worldwide 
confronted by persecution and by human rights violations and 
24.5 million of those people were refugees, those outside their 
countries of origin, and about 40 million were internally 
displaced.
    According to the well respected organization, Development 
Initiatives, governments and the private sector spend over $27 
billion annually in humanitarian aid. The United States is the 
largest donor. But as a percentage of GDP, we are not near the 
top. And U.S. aid amounts to less than 1 percent of the Federal 
budget.
    So what are some of the key issues on refugees and 
migration confronting this Congress? First, there is the issue 
of support for refugee solutions, solutions that have been 
overwhelmingly endorsed by governments in a recently adopted 
Global Compact on Refugees, solutions which are reflected in 
international programs supporting education and employment of 
refugees, in countries like Jordan, like Turkey, like Uganda, 
like Ethiopia and others.
    The United States had been at the forefront of this 
solutions effort, but frankly, policies have shifted. With the 
Trump administration pressing for dramatic cuts in humanitarian 
aid, opposing the Global Compact on Refugees, and slashing U.S. 
refugee resettlement. Congress has a role to push back against 
these measures. And the dramatic decrease of refugee 
resettlement, in particular Muslim majority countries, should 
be the subject of careful oversight.
    On the challenge of global forced migration generally, and 
despite the administration's decision to boycott another set of 
negotiations around a new agreement, or compact, on global 
migration that was also overwhelmingly endorsed by governments, 
Members of Congress should press for substantial increases in 
support, in funding, for key initiatives that were envisioned 
in that global migration agreement. These include efforts to 
minimize drivers of forced migration in countries of origin, 
measures to ensure respect for migrant rights, enhanced 
pathways for regular immigration and alternatives to migrant 
detention.
    On another critical issue, the rights and well-being of 
refugee women and girls, Congress should seek to lift 
restrictions on aid for sexual and reproductive health 
services, and on services related to response to gender-based 
violence, restrictions that have been imposed by the 
administration. And those should be particularly alarming in 
light of violence against women and girls in places like Burma, 
otherwise known as Myanmar, South Sudan, and the Democratic 
Republic of the Congo. And Congress should reject actions that 
politicize humanitarian aid. In 1984, it was the Reagan 
Administration that declared that a hungry child knows no 
politics. And we should be deeply concerned by departures from 
this principle, reflected for example by the administration's 
decision to end humanitarian aid to Palestinian civilians due 
to the political positions of Palestinian leaders. This has had 
serious consequences for life sustaining assistance and 
Congress should protect aid to civilians at risk without 
discrimination.
    Finally, Congress cannot ignore refugee protection at home, 
where we have recently witnessed measures that dramatically 
limit the ability of Central Americans to make claims for 
asylum. Beyond enacting legislation to ensure that the 
administration acts consistent with U.S. law and values, 
Congress could legislate, should legislate a special refugee 
and humanitarian resettlement program to address humanitarian 
challenges at our southern border. We have done it with Soviet 
Jews, we have done it with Cubans, we can do it with Central 
Americans.
    The consensus--the consensus in our country for respect of 
refugee rights--that is a consensus that has always been a 
fragile one, with loud voices of intolerance often appealing to 
our fears, rather than to our ideals and our interests. And 
this is precisely why at this moment in history the voices of 
Members of Congress are so critical. I urge that you use those 
voices in Washington and beyond the beltway to ensure a 
brighter, a more affirming, and a successful future for all 
Americans.
    Thank you.
    [The prepared statement of Mr. Schwartz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you very much. I appreciate your patience 
through our voting and the recess that we took. And would like 
to ask questions that focus on recommendations for what you 
think that we could be doing, how we could direct our 
assistance.
    Mr. Mace, you talked about restoring the refugee 
resettlement piece. I would like for you to elaborate a little 
more on that. You also spoke about the Muslim ban. And knowing 
that that is a policy that I do not see changing at any time, 
but what can we do in terms of as Congress as we put 
legislation forward to support refugees in terms of resources 
that we could give. What are some examples?
    And I would ask that of all of the witnesses, but will 
start with Mr. Mace.
    Mr. Mace. Sure, thank you for the question. On resettlement 
first, just in terms of the recommendation itself, our ask 
would be to see if restored this cannot be a new normal. The 
goal is 30,000 for this Fiscal Year and as I said we will not 
even get to 20,000 if we continue at this rate. We cannot let 
that be a new normal. We cannot let that be a new normal now 
and in future administrations as well.
    And would encourage Congress to through appropriations make 
that clear, make that clear to the administration that that is 
not what we want. In terms of the Muslim ban, and in terms of 
Syrians in particular I spoke of the Amari family from Syria. 
There are 5.7 million people, Syrians, refugees and UNHCR has 
actually said that they are one of the populations in highest 
need of resettlement. The U.S. has settled 40, to date, four, 
zero this fiscal year. I think that anyone could say we can do 
better than that, especially when we are faced with such need.
    And I would echo others on the panel that we should really 
call as in times past the Congress has said we are in an 
emergency, we are in an urgent situation, we need to recognize 
that, it does not matter, we do not need to wait for the end of 
the Fiscal Year to do that. I understand the President has a 
lot of power with setting the refugees' admissions goal, but 
Congress has power too and should reassert that.
    Ms. Bass. Thank you.
    Ms. Buwalda.
    Ms. Buwalda. I would like to make a comment to that. I do 
not see it as a Muslim ban. I see it as a ban specific to 
countries because we represent Christians in the very same 
countries that have the same--that are suffering under the same 
plight of being unable to come to the United States. And these 
are minorities within those countries that are subject to the 
ban.
    And so I wish to make that point for the record. Thank you.
    Ms. Bass. Mr. Schwartz.
    Mr. Schwartz. Yes, I appreciate the question and in my 
testimony, it was very important that every part of my 
testimony had a section on what Congress can do. And let me 
talk a little bit about some ideas there.
    First, oversight is really important. In 2016, we resettled 
more than 9,000 Somalis. In 2016, we resettled more than 12,000 
Syrians. As of January 31, those numbers were respectively 14--
not 14,000--14 and 13. Since 9/11, we have resettled 1 million 
refugees more or less. In those years since 2001 there is not 
one case, there is not one case of an American citizen being 
killed in an act of terror perpetrated by a resettled refugee.
    In 10 years we had more than 250,000 people killed by gun 
violence. We have resettled 1 million refugees since 9/11, not 
one case of a refugee being responsible for an act of terror 
that led to the loss of an American life. Yet, we have gone 
from 9,000 Somalis in 2016 to 14 Somalis in 2018-2019. So that 
requires oversight. You need counterterrorism experts who are 
not in the government to get in here and talk about evidence-
based policy. So oversight is critical.
    Second, I think the Congress can legislate a refugee 
resettlement program. The President, yes, under our current 
program has the authority to determine the number of refugees 
who come in. But if you want to resettle 100,000 Central 
American refugees, and humanitarian cases and family cases, 
over a 5 year period, you can legislate that. And why not? To 
create a more orderly process at our border. To practice at 
home what we are preaching abroad to so many other 
governments.The President himself in 2017 at the United Nations 
declared that countries should take care of refugees who are 
close to their homes. Well, Central America is at our border 
and are pretty close to their homes.
    So you could legislate, coming from this committee, the PRM 
Bueau could implement it, a refugee resettlement, program.
    Ms. Bass. Did you say PRM?
    Mr. Schwartz. The State Department's Bureau of Population 
Refugee and Migration.
    I will just give you a couple of other recommendations: you 
could legislate support for the U.N. Relief and Works Agency 
for Palestine Refugees--an agency that by all impartial 
accounts, including a General Accounting Office report, has 
diligently sought to implement humanitarian assistance. Yet all 
of that aid was cutoff by the Trump administration. You could 
legislate programs that have been cutoff on the protection of 
women and girls in humanitarian situations; you can do all of 
that and much more.
    Ms. Bass. Thank you. Before I go to my esteemed colleague 
here, my ranking member, it was interesting what you said about 
Christians minorities in those countries when the ban was put 
in place, the target was the Muslim population, I think it is 
unfortunate that Christians are being--there is consequences 
for them as well, but remember that was the original intent. It 
was changed to be countries for it to follow the Supreme Court.
    Mr. Ranking Member.
    Mr. Smith. Thank you so much, Madam Chair.
    Thank you all for your testimoneys, it provides a great 
deal of guidance and wisdom I think for the subcommittee, it is 
deeply appreciated and all of your work for decades in most 
cases.
    Let me just ask a couple of questions. You know, your 
point, Mr. Schwartz, I think was very well taken about people 
not being killed by refugees but there are threats out there as 
we all know, and maybe there have been some but they were not 
identify by police or whatever as refugees. And your point on 
gun violence I thought it was very well taken as well.
    There is right now in the news we hear about the so-called 
ISIS bride from Alabama who has called for sleeper cells with 
ISIS to kill Americans, especially during patriotic holidays 
such as Veterans Day, Memorial Day. I remember during the 
Balkan war, I was there frequently in Bosnia and Croatia. And 
when the fighting went into Kosovo, was in Stankovich refugee 
camp in Macedonia, met with many of the people there and 
frankly the open door welcoming for people from that camp to 
the United States. Many of them disembarked in my district.
    They came to McGuire Air Force Base. Many of us went out to 
the airplanes and met them. Some of those people I am sure I 
met when I was at the camp because I was there for hours. But 
there was one guy who became part what they called the Fort Dix 
Five who had become radicalized at some point. And they were 
trying--because he lived at Fort Dix, which is adjacent to 
McGuire.
    Mr. Smith. And he was the weapons procurer, and they 
planned on a mass killing of servicemembers and their families 
and Fort Dix. They originally intended on bringing pizza and 
with it AK-47s and other--to just kill people wantonly and 
horribly. Luckily, that was thwarted by the FBI and by--so 
there are threats.
    And I am just wondering, you might speak to it. How do we 
mitigate those threats? How does the vetting process become 
even more aggressive? I know when we had the last 
administration here, they talked about very high degrees of 
vetting. And I know the current administration is doing the 
same.
    Second, if I could, Ms. Buwalda, you speak very eloquently 
about the crisis in Thailand, and it is Christians, it is Falun 
Gong who are being sent back to China, it is Montagnard, the 
500 who are being mistreated there, Christians. But your 10 to 
30 percent of the Pakistani Christians that are granted refugee 
status is appalling. And I am wondering, you know, what do you 
recommend we do to hold UNHCR accountable, I have sent letters 
to them. I have talked to officials, we have talked to the 
UNHCR and we seem to get nowhere.
    Is it a very poor staff on the ground, and Human Rights 
Watch has spoken about this as well, or is it something 
different that we are talking about, you know, there is just 
not enough people?
    But what is the problem and how do we fix that? Because 
that is seems to me to be a huge, huge problem. And your 
elaboration of the case of Michael D'Souza after being beaten, 
goes to Thailand seeking help, comes back to Pakistan, and 
then, as you point out, his two sisters-in-law were beaten as 
well. If that is not well-founded fear of persecution, I do not 
know what is.
    So hopefully the UNHCR will do a far better job. You know, 
many of us have been very concerned with them over the years. 
The secretary general who used to be the head of the UNHCR, I 
met with him many times when they were sending women who would 
make their way out of North Korea into China, many of whom 
would be forced into human trafficking. And as you know, I 
wrote the laws on human trafficking, including the Trafficking 
Victims Protection Act. We had women testify here in this room 
who they were sent back by the Chinese Government in clear 
contravention of the refugee convention to which they are 
signers of. I mean, maybe you guys want to speak to that as 
well because I find that appalling as well.
    And just briefly, maybe Eric you could speak to--you know, 
many of our concerns with UNRWA is the fomenting of anti-
Semitism and anti-Americanism, but particularly anti-Semitism. 
I have hearings on that as well. The textbooks, maybe you can 
speak to whether or not they have been in all cleaned up to get 
rid of all the anti-Semitic hate that are then inculcated into 
the minds and the hearts of young children pursued under UNRWA.
    On the humanitarian side, food, medicines, I am with you, 
just get it to whoever is in need, period. But if you could 
speak to that.
    Mr. Schwartz. Well, should I respond?
    Mr. Smith. You can start, yes.
    Mr. Schwartz. You raised a couple of important issues 
Congressman Smith, and thank you. And thank you for your kind 
words before. I am very grateful for the opportunity to have 
worked with you on that and other issues through the years.
    First, let me say that my concern about the UNRWA decision 
was that it was explicitly and demonstrably an unprincipled 
decision. The President tweeted 1 day that, you know, if 
Palestinian political leaders do not--I do not have the quote, 
but essentially--do not toe the political line, we are going to 
stop aid. And then the next day the U.N. Ambssador to the 
United Nations, in response to a specific question about UNRWA, 
alluded to the same issue that the President alluded to. If the 
political leaders do not toe the line, that aid ends.
    Now, whatever your views about UNRWA, that is obnoxious, 
unacceptable, and in conflict with the American commitment to 
the Good Humanitarian Donorship Principles, to which we have 
subscribed. That aid should be based on need, and the political 
opinions and views of political leaders should not impact 
whether or not----
    Mr. Smith. Can I interrupt for a second? How do we get the 
educational piece fixed----
    Mr. Schwartz. OK. I am going to get to that. So my point 
was that that decision was an unprincipled decision.
    My second point is that I would refer you to the General 
Accounting Offices, I believe it was 2017, or the General 
Accountability Office, their name has changed; the 2017 report 
on UNRWA. And I think what it demonstrates is this is an 
organization which is doing the very best it can--and doing 
good work in trying to ensure that principles of tolerance and 
impartiality are promoted in its materials--under very 
difficult circumstances. And if UNRWA was not doing that, 
nobody would.
    And so I would refer all Members of Congress to that GAO 
report, because from my perspective, it reveals that this is an 
organization that is operating in a difficult environment and 
doing very good work in trying to push principles of tolerance, 
impartiality, aid-based on need, human rights promotion, in 
circumstances where they are using, you know, national 
curriculum, et cetera. So they are pushing against efforts at 
discrimination and bias. That does not mean that they are 
completely successful in eliminating it, but they are pushing 
in the right direction.
    Should I address your security question, because I do not 
want to--I can wait.
    Ms. Bass. Why do not we have the other two people respond. 
We are quite a bit over time, and I want to give my other 
colleagues a chance to ask questions.
    Ms. Buwalda. I would like to speak to your question with 
regard to the UNHCR's adjudication. And I believe that there is 
definite need of improvement. One of the reasons for why it 
occurred in terms of denial rates being so high is that they 
have an unbalanced burden of proof placed upon them, a 
skepticism. We had a UNHCR official describe how--just the 
basic skepticism of Pakistani Christian asylum seekers there 
that demonstrated that they are probably systemwide within 
Bangkok not effectively handling these cases.
    From 2016 to 2017, there was an effort to bring backlogs 
down. What they did was rush cases through. The fastest way for 
doing that is to deny them. And that also came with adverse 
credibility claims. With an adverse credibility claim you have 
almost no chance on any appeal and you are left hopeless. The 
anecdotal evidence we have and information we have is 
significant in terms of the numbers.
    I would also like to point out that the UNHCR--their own 
reports are demonstrating that Pakistani Christians suffer 
persecution. One of the examples I gave in my testimony I 
submitted is that of Talib Masih. Talib Masih was listed in 
their own report prior to them denying his case for asylum in 
Bangkok. And we worked very hard. His case has been reversed, 
but now he has no place to go. He cannot come--he has not been 
referred to any country at this stage, 1 year later, for 
resettlement. So we are remaining concerned about him and 
others that should be resettled.
    Mr. Mace. And if I may, briefly, just on UNRWA, I will say 
that when I was in Jordan and Lebanon, we also went to 
Palestinian refugee camps, it was one of the first places we 
went. And I just echo what you said, Congressman, that 
ultimately it is about ensuring this aid gets to those who need 
it most.
    A Shatila camp we were in in Beirut, it was one of the most 
over-crowded places just--and because of the Syrian refugee 
crisis, it is the numbers--it is just the density is extreme. 
And we asked people at UNRWA about what do these cuts tangibly 
mean? Education was one of the first things they said. And 
that, you know, they have--other donors have helped fill in the 
gaps, but they were very worried about what the years to come 
mean if the U.S. does not restore its commitment. And would 
certainly encourage them to come before this committee or the 
full committee to really hear from them because I definitely 
think that they would have much to say in response, to you.
    Just on the vetting, I just want to say that of refugees in 
general, the refugees who are resettled to the U.S. are by far 
and away the most vetted of any population, period. Probably in 
the world. And certainly we should always look to improve this 
program and make sure that this program is safe. We want this 
program to be safe. It is safe. And I think that this President 
and the previous Presidents have looked to that. And let's make 
sure this program works and is actually doing the goals that we 
set out at the start of the year, which it is currently not.
    Ms. Bass. Thank you very much.
    Representative Wild.
    Ms. Wild. Thank you, madam chair. And thank you to all of 
you for being here to educate us about what I consider to be a 
very, very important issue.
    Mr. Mace, you sort of anticipated the question that I was 
going to ask Ms. Buwalda, but I was going to go ahead and ask 
her at this point. There is a perception, which is I believe 
not true, that refugees are not properly vetted. And this may 
be perpetuated by our administration, maybe it is not. But 
could you address, without going into exhaustive detail, the 
type of vetting that refugees undergo before they are allowed 
to come and live here?
    Ms. Buwalda. Yes, Congresswoman. The vetting system is very 
detailed and multilayered. There is actually a very in depth 
review that takes place. There are all kinds of background 
checks. There is even, as I understand it, DNA testing. In 
certain communities, such as in Syria, they go to the 
neighborhoods where the person claims to be from to determine 
whether those neighborhoods had terrorist activities, et 
cetera.
    There is a data base that, you know, overlap in terms of 
how vetting takes place. I am completely in agreement with my 
copanelists here that the vetting process is extensive. And I 
do believe that there is--you know, there may always be room 
for improvement, but I do believe the vetting process is 
extensive on this population. And, consequently, it is amongst 
the lowest populations that we would have a threat from.
    There are other types--I am an immigration attorney, there 
are other times of visas where there is no vetting. And so this 
is significant vetting that does take place.
    Ms. Wild. And how long does the process take, if you know?
    Ms. Buwalda. Due to the overlapping, it can be--the 
shortest is well over a year, and the longest ones because of 
overlapping, one will expire, another one start, it can be 2, 3 
years.
    Ms. Wild. Thank you.
    Mr. Mace, I have heard it said that the vast majority of 
people, wherever they were born, would prefer to stay in their 
home country if they can do so safely and receive adequate 
nutrition and so forth. Has that been your experience, and what 
you have observed?
    Mr. Mace. In terms of people wanting to go back to their 
home countries?
    Ms. Wild. Or--I guess my question is really based--and it 
is more of a statement, I suppose, that refugees are leaving 
untenable situations. Is that fair to say?
    Mr. Mace. Absolutely. And I think it is important to note 
that no one wants to leave their home, but if you are forced to 
based on what you believe, a war, violence, that is not a 
choice. And, you know, when we were in Jordan and Lebanon, we 
met well--almost 100 refugees throughout the course of our 
trip, and we would always ask, Syrians in particular, we would 
ask, do you feel comfortable to go home? Every single one said, 
no, not right now. Some would say, I would like to go back, but 
the conditions are not right right now. And then some said, I 
will never be able to go back. If I go back, I have nothing to 
go back to. If we go back, my son will be conscripted into the 
army. My name is on--these are just different things that 
people--my name is on a list, and if I go back, I will die. 
Someone point blank said that.
    So I think it just goes to the point that, yes, some people 
do want to go back, but the conditions are not right. And, 
unfortunately, these crises that we are talking about, they 
just go on and on, and we are seeing people who live in 
protracted displacement, intergenerational refugees. I mean, I 
met children of refugees who were born in the country that they 
are in now. So, yes.
    Ms. Wild. Thank you.
    I want to ask you a followup to that, and it may sound like 
a rhetorical softball question, but it is actually one that I 
would like to hear you articulate about, and Mr. Schwartz and 
Ms. Buwalda, also if you care to. And that is, why is it 
important for the United States to lead the way in this 
humanitarian crisis?
    And I ask you that from the perspective of a legislator who 
has a district where a number of my constituents may very well 
articulate the idea that we should just be taking care of what 
is happening right here in America, and why do we need to get 
involved with people from around the world who are suffering 
through these humanitarian crises.
    So give us some words of--some pearls of wisdom of what we 
can say to address that to people who express that.
    Mr. Mace. Sure, I would love to speak briefly and hear from 
my colleagues here.
    First of all, when the U.S. leads, others follow. And, you 
know, we do not have to look that far back when we were the 
leader. We are not the leader in resettlement anymore, period. 
And last year, in 2018, not the calendar year, there were 55--a 
little over 55,000 people who resettled, not to the U.S., 
globally. And 22,000 or so of which was in the U.S., so we are 
not even the leader anymore.
    A few years ago it was well over 100,000. There are 1.4 
million people who need access to resettlement. I think anyone 
can say the U.S. can do better. And, importantly, on our U.S. 
refugee admissions program, it is a program that started in 
1980 with the 1980 Refugee Act, it is a program that has been 
built up, like I said, with communities like yours, all across 
the country, and it benefits our communities. It is such--it 
revitalizes--refugees are--they are everything and anything 
because they are just like us.
    So I just do not understand anyone who says that refugees 
do not contribute to the United States. And we have seen that, 
not only here in the U.S., but all around the world.
    Ms. Wild. Thank you.
    I am going to actually ask you, Mr. Schwartz, but rather 
than going into that question because I saw something in your 
written testimony that I did not hear talked about today, and 
that is what the effect of the global gag rule is on this 
crisis. And you mention it in your written testimony, and I 
would just like to hear from you briefly on it.
    Mr. Schwartz. Yes, the restrictions against provision of 
these services to women if the organizations concerned provide 
abortion-related services, even if they are not being done with 
U.S. funds, is a significant problem.
    Now, the State Department and USAID emergency assistance is 
exempted. However, there is a lot of assistance that goes to 
the building of resilience that is critical for humanitarian 
emergencies that is cutoff. And also of significant concern is 
the complete cutoff of support for the U.N. Fund for Population 
Activities, which includes, you know, critically important 
assistance for services related to sexual and reproductive 
health, for prevention and response to gender-based violence.
    But I also want to comment on your last question. I mean, 
nobody suggests that the world--that the United States or the 
countries of the global north--will resettle the majority of 
the world's refugees. Even at 1.4 million, you are at about 4 
percent, 4 or 5 percent--maybe 4 or 6 percent. But the 
Government of Turkey is hosting 3 1/2 million refugees, the 
Government of Jordan is hosting upwards of a million refugees, 
the Government of Bangladesh is hosting a million refugees, the 
Ethiopia is hosting 900,000 refugees or more, and we are going 
around the world saying to these governments, this is what you 
must do. This is your responsibility.
    How in heaven's name can we not demonstrate that we have 
skin in the game, that we are going to demonstrate a modicum of 
leadership by saying, perhaps we will resettle 100,000 
refugees, which is a drop in the bucket. And so it is really 
critically important we do that.
    Finally, I ran the U.S. refugee resettlement program. I do 
not want to take too much of your time, but I would be happy to 
talk about the security issues----
    Ms. Bass. We need to move on.
    Ms. Wild. Madam chair, my time is up, and it is my fault 
for asking very extensive questions. I pass to----
    Ms. Bass. Representative Omar.
    Ms. Omar. Thank you, Chairwomen Bass.
    Hello, everyone. Thank you so much for being part of this 
important discussion. It is interesting to hear people say, I 
wonder what this process is or what refugees are like in the 
United States. But as a refugee and as someone who has gone 
through the process of vetting, I know the many years my family 
waited in a refugee camp to be able to resettle in the United 
States. And I know with certainty the kind of anxieties that a 
lot of families have as they await the opportunity to get 
resettled and start a new life.
    I just wanted to kind of look at and follow with the line 
of questioning that Congresswoman Wild had around what happens 
when we lower the refugee cap here, and how that could lead to 
other countries following pursuit and lowering the cap of 
refugees that they welcome into their own countries, and we are 
at risk of that because when we lead others follow. And I think 
we are setting a really bad example around the world right now.
    But I wanted to also up lift what these particular policies 
that this administration has, it is really all about--according 
to the refugee processing portal, 68.1 percent of the 22,491 
refugees admitted in 2018 were Christians, 15.5 were Muslim, 
9.3 were animists, Buddhists, or Hindu. Only 369 refugees were 
admitted from the countries included in the modified travel ban 
or the Muslim ban.
    The breakdown is as such. From Chad, only one refugee was 
admitted who was Muslim, and in totality only one person. In 
Iran, 41 were admitted. Of that 41, 23 were Christians, 8 
Muslims, 5 Baha'i, and 3 Siberian Mandaeans, 1 Jewish, and 1 
had not declared a faith. From Libya, we only admitted one 
person, and that person was Muslim. From North Korea, we 
admitted five, four Christians, one Buddhist. From Syria, we 
admitted 62, 42 were Muslim, 20 were Christians. From Somalia, 
we admitted 257. Venezuela is zero. And two from Yemen.
    So when we think about--and we consider the harsh crack-
downs on asylum seekers from Central America, the policy that 
is the Muslim ban and the sharp drop in the refugee 
resettlement during this administration, do you, Mr. Schwartz, 
agree that the President's immigration policies are not really 
based on whether we favor legal or illegal, whether it is about 
safety and security, but it is rather about the kind of people 
that we think we should be welcoming into this country?
    Mr. Schwartz. I am deeply concerned, Representative Omar, 
as a former dean of a public affairs school that sits in your 
district, that hosted at our school many Somali students. I am 
concerned about the dramatic decline in resettlement of 
refugees from Muslim majority countries. I think it merits the 
scrutiny of the Congress, and it is a source of concern.
    This is not a mystery. President Trump has said that he 
does not really want the United States to be resettling very 
many refugees, I mean, it is what it is. The reason I think 
this happens, and this relates to the security question, is, 
look, security screening is very important, and the FBI is 
involved in it, the intelligence community is involved in it, 
the Department of Homeland Security is involved in it.
    It can be a complete obstacle to resettlement of refugees 
from Muslim majority countries or it does not have to be, and 
the difference is leadership. If the President of the United 
States said to those agencies, ``this has to work, and I am 
going to throw the resources necessary in terms of 
adjudicators, in terms of intelligence, et cetera, to meet the 
objective of resettling reasonable numbers of these 
populations", it would happen.
    But it is not happening because this administration, is 
just not interested in that outcome, so it is not prepared to 
devote the resources necessary to get through the process. That 
is what is happening. And I think it is very unfortunate.
    As a practical matter, the way Congress can address the 
resettlement issue, at this point in this administration 
because of the plenary authority of the President to decide how 
many refugees are coming in every year, the way you can address 
it is the way I suggested in my testimony. Get consensus on a 
Central American refugee resettlement program or some 
resettlement program, and legislate it. And that is how you can 
effect it.
    But with the President's posture on this issue and his 
untrammeled authority to decide how many people are going to 
come in, the Congress is not going to significantly alter that 
process. It is just not going to happen. And it is a tragedy, 
and it speaks poorly about who we are as a country, but it is 
what it is.
    Ms. Omar. So sometimes there are a lot of conversations we 
have that are not really rooted in fact. There are people 
within my home State of Minnesota who will say there are 
thousands of Somalis coming in every single day being resettled 
without your knowledge. The President himself was unfortunately 
in my State and said something to that regard. And in the last 
year, one Somali family was resettled in our State.
    But I also want to go back to a statement that was made on 
the committee and just kind of have some facts be used to 
address that. You know, the ISIS bride was mentioned, and it is 
a fact that the ISIS bride was not a refugee that was resettled 
in this country. It is a fact that she was not an immigrant, 
but an American born to a family of diplomats. And so I would 
love to hear from you, Mr. Schwartz, or any of the panelists, 
when you state earlier that the refugees are the most vetted 
and have not been part of causing terror or taking American 
lives in this country.
    Can you actually address that with some actual facts? Do 
you have numbers or some things to help us cleanse us of this 
hateful rhetoric that we have developed in thinking that people 
who are coming to this country to seek a new life are the ones 
that are causing us harm, and one that is making our 
communities unsafe and turning us against each other because, 
you know, for the most of Minnesotans who are of refugee 
background, most of us came as children, and we went through 
years of vetting and went through the process of becoming a 
citizen. I mean, we have been fingerprinted, tested, more than 
any American has ever been who was born in this country.
    And so it saddens me and it is frustrating really and 
angering to hear people say that we are a threat to society 
when we are tested and policed and surveilled more than any 
member of our society.
    So can you please help me out and put some facts to this?
    Ms. Bass. Well, actually, we have gone over on time, so if 
one of you want to briefly respond, and then I want to make a 
few comments before I move on to Ms. Houlahan.
    Mr. Schwartz. Well, just very briefly. I think security 
screening is legitimate. But I also think policy has to be 
evidence-based. I think if you have an immigration program, and 
we have an immigration program, you know, some of the people 
who come into your country are going to commit crimes, at lower 
rates than native Americans, but that is going to happen, so 
policy has to be evidence-based. And I think we have durable 
and responsible screening procedures.
    The Cato Institute, a conservative think tank in 
Washington, estimated that between 1975 and 2015, the 
likelihood of an American losing their lives at the hands of a 
refugee was one in 3.64 billion, which means almost 
nonexistent. And so I think policy has to be evidence-based. We 
have to have responsible screening procedures, but policies 
have to be evidence-based.
    Ms. Bass. Thank you. So before we move on to our last 
member, let me just say that in this hearing we went over 
beyond 5 minutes because it is difficult when one person does 
it then not to allow everyone else. In the future, though, I do 
want our hearings to stick to 5 minutes, and then after 
everybody has had a chance to speak, if there is time left, 
then we can have people return for a second round.
    Representative Houlahan.
    Ms. Houlahan. Thank you. And thank you to my colleagues as 
well for their impassioned conversation and to you all for 
coming today, and to Mr. Mace and Mr. Schwartz for spending 
time with me last week on the phone, and bringing me up to 
speed on this.
    I am the daughter of a refugee who came here 70 years ago, 
and these issues are critically important to me as well. I am 
trying to find a solution, just like I think everyone here, to 
being the Nation that we have been promised and the Nation that 
has given us so much, as both of us sitting here on the stage--
many of us here.
    And so what I am trying to figure out though also is--I am 
also from a community that is struggling right now, they have 
jobs that are open and they cannot find people to fill those 
jobs. They are in danger in the case of one industry in 
particular of literally going out of business, five generations 
of people have farmed mushrooms in my community, we no longer 
can find the labor who would like to do this, and those 
businesses are going under.
    What I am trying to understand is in a world where we have 
these caps, which are not being met. In a world where we have 
these jobs, which are being unmet as well, how do I help as a 
legislator to match the supply and the demand without being, 
you know, crass about human lives, I am just trying to figure 
out how it is that we can figure out how to match what is 
clearly a group of people who would desperately like to fill 
those jobs and desperately like to be part of the American 
dream, and a community that would desperately like to have them 
be there?
    I am wondering from you all, have you seen any programs 
that work, that can marry up these two groups with one another? 
Is there anything that you have seen either at the State or 
local level, or frankly, at the Federal level? We spoke about 
the idea of having this special Central American refugee 
policy, I was really intrigued about that. Can you put some 
bones to that kind of an idea? And that I think is largely--the 
large part of my question.
    Mr. Mace. I would just say briefly that, first of all, when 
I was in the region, one of the very first things people would 
say, besides education, if they had kids it was always 
education of their kids, and that I want to work. I want to 
have a meaningful job. And whether that is in the country they 
are in or if they are resettled, everyone wants to work, they 
do not want to be reliant on aid.
    In terms of that, I think that it is not surprising you 
have heard from people in your district. All across the country 
there are so many different industries and places that actually 
benefit from refugees, immigrants, asylees, refugee, 
immigrants, they contribute to our country in so many vibrant 
ways.
    I think the first thing I would say is in terms of a 
refugee programing, when we are talking about that, we just 
need to call for an increase in the program. I think that there 
is other ways of looking at it, and I would say that it might 
be worth exploring. You know, at Embassy International we have 
a community sponsorship program where we encourage amnesty 
members to sign up to be sponsors of refugees, aligned with 
their local resettlement agency, like LIRS, IRC, HIAS and I 
think that there is innovative things that we could look to to 
say maybe there are ways that we can work together.
    But I think it is important to note that what makes our 
program, the U.S. refugee admissions program such a good one, 
is that we do not value people based on their education, based 
on anything except to say who is most in need, who is most 
vulnerable, and that is where the U.S. refugee admissions 
program should always start.
    Mr. Schwartz. I presume you are not talking about the 
regular immigration law means of bringing employees in. And so, 
you know, what Mr. Mace said is true. The refugee program has 
been of pristine in that it has focussed on refugee admissions 
based on the five criteria related to persecution, and I honor 
that. But I would not oppose, and I think a special initiative 
focused on Central America, that broadens the categories to 
include other types of forced migrants.
    Not every forced migrant is a refugee. But people who feel 
they need to leave their homes, and who we all would agree they 
should be leaving their homes due to violence and other 
factors. Forced migrants, you know, are in need. And in this 
special situation, I think there are opportunities for special 
legislation that captures both refugees and other forced 
migrants.
    I would refer you to a Washington Post piece by Roberto 
Soro of USC and Alex Aleinikoff of the New School, the former 
INS legal counsel, that discusses this particular program in 
some detail.
    Ms. Houlahan. Thank you very much. I will yield back.
    Ms. Bass. Thank you very much, I appreciate that. Mr. 
Smith, would you like to----
    Mr. Smith. Thank you, madam chair. And, again, thank you 
for calling this very important hearing. I did want to ask Mr. 
Schwartz, if I could, you know, you mentioned the GAO report, 
which I have read, but there was a declassified GAO report, as 
you know, that just came out, and that tells a different story. 
A profoundly different story with, of course, to UNRWA and the 
textbooks. It does point out that UNRWA and state have taken 
steps to identify and address potentially problematic content 
of textbooks used in UNRWA schools, and there is about 370 of 
those schools.
    But then it says, due to financial shortfalls, and this is 
before there was any cut, UNRWA officials told GAO that UNRWA 
did not train teachers or distribute the complimentary teaching 
materials. They point out in their report, this is GAO, again, 
that there was inaccurate information conveyed by the U.S. 
Department of State to Congress, and omitted potentially useful 
information, and bottom line, without a fuller explanation, 
Congress may not have the information it needs to oversee 
efforts to identify and address potentially problematic 
textbook content.
    So my concern is, are we talking about an initiative that 
looked good? Had a great deal of surface appeal, but when it 
came down to implementation, it was an absolute sham. This GAO 
report, the one that was just declassified, makes it pretty 
clear that there are really serious problems that--I have had 
hearings myself in this hearing room where textbooks that are 
used to train, to educate young Palestinian children, contain 
the most horrific hate against Jews imaginable. And, you know, 
that is absolutely unacceptable.
    Remember in that great South Pacific, Rodgers and 
Hammerstein, there is a famous song in there, You Have Got To 
Be Taught To Hate. That it needs, you know, it is inculcated in 
the minds of these young people. Well, if the textbooks are 
rife with anti-Semitic hatred, that needs to be called out and 
excised, and that is what we have been calling for.
    I met with the UNRWA board many times myself in the past 
and it kept calling for that. Now we have a GAO report that 
makes it pretty clear, still a problem. You know, they did what 
looked like on the surface was something, then it was not 
implemented at the school.
    I would just say this for the record, and I know we have a 
fundamental difference when it comes to the right to life 
issue. I believe that unborn children are--should be respected. 
That abortion is violence again children, whether it is 
dismemberment or chemical poisoning, the end result is the 
same. That child, that girl or that boy dies. I do believe that 
there are two victims in every abortion, both the mother and 
the baby.
    That said, in 1984 when Ronald Reagan announced the Mexico 
City policy, there were many people who said, nobody will 
accept these terms and conditions. I offered the amendment in 
1984 on the floor of the House to protect the Mexico City 
policy, and that argument was made over and over and over again 
by my very distinguished and respected colleagues, who I like 
and respect, but disagreed on this issue.
    Now, we found out during Reagan, Bush and Bush who had the 
Mexico City policy in place, that just about everybody accepted 
those terms and conditions because we do not want to be in the 
position of facilitating the killing of unborn children. You 
know, I know you know this, and I think most people know it. 
Just look at what first baby pictures are now all about. The 
picture of the child in utero, the ultrasound. And parents 
proudly send that out to grandparents and friends, and say, 
here is what the little girl or little boy looks like. Abortion 
is the antithesis of that because it either dismembers that 
little baby or kills that baby with chemical poisoning.
    We are, out of an abundance of concern for children, the 
New Protect Life policy in global health, it is designed to 
say, let's look at birth as an event. It is not the beginning 
of life, but as an event, and protect to the greatest extent 
possible those children. The original or the current analysis 
is almost every foreign NGO in the world, not all, but almost 
every one, has accepted the terms and conditions that have been 
promulgated by the administration.
    So the money is flowing, it is flowing to organizations 
that are doing the great work on the ground. So I, do believe 
some day people will look back upon us, and say, how could a 
country that so strongly protected other human rights could not 
see that those children had value and worth? I know we 
disagree, but that is where I am coming from. They are 
children, they deserve our respect, and hopefully our 
protection. And, minimally, not our financial facilitation of 
their demise. But if you could maybe speak to this one as well.
    Mr. Schwartz. Yes, I have to respond. I just have to 
comment. First of all, Representative Smith, you know how much 
I admire your commitment to humanitarianism and to the rights 
and well-being of refugees, it goes without saying. But we have 
some differences.
    On the UNRWA issue, I was referring to the classified 
report. I was not referring to an unclassified report. I have a 
different view on that report, because I believe that in an 
imperfect world we have an organization operating in an 
extremely difficult climate. I believe that organization is a 
force for positive movement on humanitarian issues, and I 
believe that their removal from that situation, which would be 
facilitated by a U.S. cut in aid, would have dramatic and 
negative implications for the Palestinian people.
    If I can take off my Refugees International hat for a 
second, I also believe it would have negative political 
consequences. I think it would strengthen the position of 
radicals in the region. So that is my first point on UNRWA.
    On the other issue, I am not advocating U.S. support for 
abortion-related services, but I am saying that I think this 
policy, because it prevents assistance to organizations that 
use other funds to undertake such activities, I believe this 
policy does more harm than good. And so we have a difference of 
opinion about that.
    Ms. Bass. So let me just before I close us out. Oh, 
Representative Omar?
    Ms. Omar. Could I?
    Ms. Bass. Sure.
    Ms. Omar. Sorry. Thank you. I just thought of--I had a 
round table on immigration issues for recess week in my 
district, and two of the participants were lawyers who went to 
go help in our southern border to assist some of the asylum 
seekers there. They were speaking about some of the things that 
they witnessed. I just noticed that, Mr. Schwartz, you had 
mentioned that in your testimony--and so I wanted to ask you 
about this policy of metering and whether it is within 
international law to do that.
    Then I wanted to ask you about our--what has our historic 
capacity at that border crossing has been and what does 
processing look like right now?
    Mr. Schwartz. Well, understanding the lateness of the hour, 
I will try to be very brief.
    Ms. Bass. Thank you.
    Mr. Schwartz. The testimony speaks for itself. I think that 
practices of the administration have run afoul of our 
commitments under the Refugee Convention and Protocol, and 
under U.S. implementing legislation around that.
    Criminalizing people who cross between ports of entry is in 
violation of Article 31 of the Convention because it says to 
somebody who crosses, we are going to put you in prison first 
and charge you, and then maybe we will consider whether or not 
you are a refugee. That is not the way to do it. So I have 
concern about that.
    I have a concern about a policy that returns people to 
Mexico in circumstances where the conditions in northern Mexico 
are very dangerous, where people do not have access to lawyers, 
where there is very little or no due process, and there is the 
risk of returning to situations where people's lives or freedom 
may be threatened.
    So for all of those reasons, I think Congress should be 
acting to legislate remedies here, and I think the policy is an 
unfortunate one.
    Ms. Bass. Thank you very much.
    Before I wrap up, I want to thank all of the witnesses for 
your testimony, for your time, and for your recommendations. As 
my colleague said, we do have differences of opinion. We have 
differences of opinion when it comes to a woman's right to 
choose. As a mother and as a grandmother, it is kind of 
difficult to hear the descriptions of what an abortion is or an 
abortion is not. What I worry about is is that when we have 
policies that try to govern what women do with their bodies, it 
really only applies to poor women, and that is my concern.
    I worry about women in other countries, that there is cases 
in Central America where women are criminalized, incarcerated, 
because they had a miscarriage, and it is not clear whether it 
was a miscarriage because of natural reasons or it was an 
abortion. So in 2019, the idea that many countries are still 
criminalizing women is of great concern to me. I just kind of 
hope when we move forward in this committee that, we 
acknowledge the differences, but sometimes I do not think the 
graphic descriptions are necessary for the point to be made.
    And with that, I adjourn.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.] 

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
